                            REVIEW REPORT                                   IG-04-010



Report Recipients:
R/Audit Liaison
Representative
H/Audit Liaison              REVIEW OF THE GIRVAN INSTITUTE OF
Representative
O/Audit Liaison             TECHNOLOGY COOPERATIVE AGREEMENT
Representative
ARC/200-9/Audit Liaison
Representative                                  February 9, 2004


cc:
G/General Counsel
H/Assistant Administrator
for Procurement
R/Associate Administrator
for Aeronautics
ARC/D/Director, Ames
Research Center
ARC/202A-3/Commercial
Technology Office
ARC/241-1/Procurement
  Officer




                            OFFICE OF INSPECTOR GENERAL
                            Released by: __[Original signed by]______________
 National Aeronautics and
 Space Administration       David M. Cushing, Assistant Inspector General for Auditing
IG-04-010                                                                             February 9, 2004
 G-03-007

                            Review of the Girvan Institute of
                           Technology Cooperative Agreement
We evaluated the Girvan Institute of Technology (Girvan) cooperative agreement
(Agreement)1 as a follow-on activity to our survey of the NASA Research Park (NRP) at
Ames Research Center (Ames).

We found deficiencies in the award and financial oversight of the Agreement.
Specifically, Ames circumvented competition and awarded the Agreement
noncompetitively based on an invalid unsolicited proposal. The unsolicited proposal was
invalid because it was not independently originated and developed by the offeror, and
further, it was paid for in part by the Government and prepared with Government
involvement. In addition, NASA has not provided sufficient financial oversight for the
Agreement. NASA’s share of funding under the Agreement has increased more than
1,000 percent, from $600,000 in the original award to $6.9 million, without adequate
analyses to ensure that the cost to the Government was fair and reasonable. During the
first year of the Agreement, NASA provided 92 percent of Girvan’s funding versus the
23 percent specified in the original Agreement.

We made two recommendations to NASA management for improving the effectiveness
of its procurement and business operations relating to the Agreement. The first
recommendation was to reevaluate the Agreement and determine whether it is in the best
interest of the Government to continue or terminate the Agreement. Secondly, if the
Agency decided to continue the Agreement, we recommended that it take action to ensure
proper financial oversight of the Agreement.

Management concurred with the first recommendation to reevaluate the Agreement and
determined that it was in the Government’s best interest to terminate it. The projected
completion date for the termination action is February 29, 2004. Because the Agency is
taking action to terminate the Agreement, the second recommendation is moot.

The complete text of management’s response is in Appendix E. We consider
management’s proposed corrective action to terminate the Agreement responsive to our
recommendations.

We identified “funds put to better use”2 of $1,471,799 that are expected to be achieved by
the Agency taking the corrective action of terminating the Agreement. This amount is

1
  Cooperative agreements are awarded when the principal purpose of the relationship between NASA and
the recipient is the transfer of anything of value to the recipient to accomplish a public purpose of support
or stimulation authorized by Federal statute. The Girvan agreement called for a set level of funding by
NASA.
2
  The auditing phrase “funds put to better use” means that funds could be used more efficiently if
management takes action to implement and complete the recommendations made by the audit, including
reduction in outlays or deobligation of funds from programs or operations.

                                                      1
calculated as the difference between the value of the Agreement of $4,872,987 and the
total obligations under the Agreement of $3,401,188. Management confirmed that no
new funds will be obligated to the Agreement and concurred with the “funds put to better
use” calculation methodology and resulting estimated dollar amount.

Invalid Unsolicited Proposal

Federal Acquisition Regulation (FAR) Subpart 15.6, “Unsolicited Proposals,” requires
that unsolicited proposals be developed outside the Government, be independently
originated and developed by the offeror, and be prepared without Government
supervision, endorsement, or direct Government involvement (see Appendix C for details
on the FAR requirements). Ames awarded the noncompetitive Agreement based on an
unsolicited proposal that did not meet the requirements of the FAR. By accepting the
invalid unsolicited proposal, NASA circumvented requirements for full and open
competition and Girvan received an unfair advantage over other potential competitors.

Unsolicited Proposal Was Not Independently Originated and Developed by the
Offeror. Ames had prior involvement with the offeror (the professor) before the
professor submitted the unsolicited proposal. The professor worked as a consultant for
Ames on a task order under contract NAS2-980813 from April 25, 2001, through
March 8, 2002. The professor’s final report under his task order included a plan for the
establishment of an “Entrepreneurial Center (EC).” On February 14, 2002, during the
same time period he worked on the EC concept under the task order, the professor
submitted an unsolicited proposal to Ames for the full implementation of the EC
(that is, Girvan).

Clear overlap was present in the professor’s EC plan developed for Ames under the task
order and his unsolicited proposal to implement the EC concept. For example, the
professor’s final report under the task order proposes the following objectives for the
planned center:

    •   To foster, develop, support, and/or manage cooperative endeavors, that is, joint
        efforts between the public, private, and academic sectors in support of research,
        technology development, and technology transfer;

    •   To foster and support new companies or elements of existing companies devoted
        to the commercialization of technologies developed by governmental
        organizations and academic institutions; and
    •   To foster, develop, support, and/or manage projects, programs, and organizations
        for entrepreneurial education, education outreach, and workforce development.

Almost identically, the professor’s unsolicited proposal proposes to establish an EC
(that is, Girvan):

3
 NAS2-98081 was an Ames contract with Quantum Services, Inc. (QSI) for administrative and technical
services, with a fiscal year 2001 value of $172,980,820. The value of the professor’s QSI task order was
$207,205.

                                                    2
   •   To foster, develop, support, and/or manage cooperative endeavors between the
       public, private, and/or academic sectors in support of research, technology
       development, and technology commercialization;

   •   To foster and support new companies or elements of existing companies devoted
       to the commercialization of technologies offered through the NRP; and

   •   To foster, develop, support, and/or manage projects, programs, and organizations
       for entrepreneurial education, education outreach, and workforce development.

Ames accepted the professor’s unsolicited proposal and Girvan was established to fully
implement the plan for an EC. A subsequent Girvan proposal seeking additional NASA
funding further evidences that there was prior involvement between the professor and
Ames as well as overlap between efforts under his task order and his efforts under the
Agreement that resulted from his unsolicited proposal. Specifically, the proposal states:

       Until March, [the professor] had been supporting the management at ARC in the
       development of the NASA Research Park (NRP) and other NASA-related activities
       under a consulting contract with a NASA contractor. This work has now been
       subsumed by the Girvan Institute, this proposed amendment accounts for increased
       costs associated with the continuation of that work.

See Appendix D for details on the professor’s efforts under the task order versus Girvan’s
efforts under the Agreement resulting from the professor’s unsolicited proposal.

Decision to Accept Unsolicited Proposal Based Largely on an Office of General
Counsel Statement That Was Qualified and Based on Incomplete Information. The
Ames Commercial Technology Office (CTO), who the professor supported under his task
order, requested legal advice via e-mail from the Ames Office of General Counsel (OGC)
regarding the propriety of the unsolicited proposal. However, the CTO’s request did not
provide an accurate and complete description of the chronology of events leading up to
the submission of the unsolicited proposal or a full depiction of Ames’ prior involvement
with the professor pertaining to the unsolicited proposal.

In an e-mail response to the CTO, the OGC stated that Ames should be able to accept the
unsolicited proposal, but qualified this statement by noting that “it’s hard to give you a
complete answer.” The OGC response also identified several issues such as
organizational conflicts of interest and an unfair competitive advantage for the professor
that could cause potential problems with the proposed arrangement. Because of these
potential problems, the OGC noted that “if [the professor] developed an unsolicited
proposal on his own time and there is no unfair competitive advantage . . . then we should
be able to accept the proposal if it has merit.” Despite the potential problems raised by
the OGC, the CTO did not follow up with the OGC to provide additional information that
would produce a complete answer.




                                                3
Recommendations, Management’s Response and Evaluation of Management’s
Response.

   1. The Associate Administrator for Aeronautics (formerly Aerospace
      Technology) should instruct the Director, Ames Research Center, to
      reevaluate the Agreement, in consultation with the Ames OGC and
      Procurement Officer, and make a written determination whether it is in the
      best interests of the Government to continue or terminate the Agreement.

Management’s Response. The Ames Director has reevaluated the Agreement, in
consultation with the Ames OGC and Procurement Officer, and decided to terminate the
Agreement in the best interests of the Government. The projected completion date for
the termination action is February 29, 2004.

Evaluation of Management’s Response. Management’s proposed corrective action is
responsive to the recommendation. This recommendation is resolved but will remain
undispositioned and open until the Agreement is officially terminated.

Insufficient Financial Oversight

The total level of NASA funding under the Agreement increased from $600,000 at the
time of the original award to $6.9 million (more than 1,000 percent) without adequate
analysis that the proposed cost increases were fair and reasonable to the Government.
This situation occurred because neither the Ames Procurement Office nor the CTO
questioned Girvan’s proposed funding increases even though the Ames Deputy Chief
Financial Officer (CFO) had raised questions. As a result, Ames is contributing
significantly more for the Agreement than originally agreed and lacks assurance that its
contributions under the Agreement are fair and reasonable.

NASA Requirements. The “NASA Grants and Cooperative Agreement Handbook”
(Handbook) and the Agreement itself have requirements for financial oversight.

   •   The Handbook, Section 1260.11(f), “Evaluation and Selection,” requires both the
       Technical Office and the Grants Officer to review significant requests for
       increases in funding to determine their necessity and reasonableness.

   •   The Agreement called for NASA funding of Girvan for the first 3 years only, and
       the Agency’s share of the costs during those years would be limited. The
       Agreement states the following:

             NASA funding and non-cash contributions (personnel, equipment, facilities,
             etc.) and the dollar value of the Recipient’s cash and/or non-cash contribution
             will be on a 23 percent NASA; 77 percent Recipient [Girvan] basis. Girvan has
             the responsibility of sharing the costs of the programs it is managing for NASA.
             Failure of Girvan Institute to cost share at least as much as is indicated in its
             proposal’s budget each calendar year is grounds for termination of this
             Agreement.




                                                  4
NASA’s Share of Funding Under the Agreement Has Grown Dramatically. In the
original Agreement, NASA was to contribute $250,000 for the first year and a total of
$600,000 over the first 3 years of the Agreement. Girvan projected that it would be self-
sustaining (that is, would not need any NASA funds) in years 4 and 5. However, 4 and
one-half months after the Agreement was awarded, Ames approved a Girvan proposal for
additional funding that significantly increased NASA’s share of funding under the
Agreement (via Supplement 1). Girvan’s financial projections in the proposal also
indicated a requirement for NASA funding in years 4 and 5. The proposal offered little
in the way of justification other than a statement indicating that “the activity has grown
more rapidly than anticipated.” Ames also approved two subsequent Girvan proposals
for additional increases in funding. The table below summarizes the growth in NASA
funding under the Agreement for the first year and in total.4

    Agreement      Effective        First Year          Percent        Total             Percent
    Document         Date         NASA Funding          Increase    NASA Funding         Increase

  Original         03/01/02         $     250,000          -        $     600,000            -
Supplement 1       07/15/02             1,215,490         386           5,902,237           884
Supplement 6       01/01/03             1,390,390         456           6,604,301         1,001
Supplement 9       03/01/03                -               -            6,909,386         1,052

NASA’s share of funding under the Agreement was also significantly higher than the
percentage (that is, 23) stated in the original Agreement. Girvan’s Profit and Loss
Statement for the first year, for example, showed NASA funding of $1,125,948 (that is,
92 percent of the total costs), while Girvan’s funding was $91,909 (8 percent).

Lack of NASA Financial Oversight. There was no documentation in the file to support
a determination that these actions increasing NASA’s costs under the Agreement were
fair and reasonable and in the best interest of the Government. The Ames Procurement
Office and CTO did not question the significant funding increase in Supplement 1 despite
questions raised by the Ames Deputy CFO. In a July 9, 2002, memorandum to the CTO,
the Deputy CFO questioned the financial planning and strategic feasibility of the
Agreement and stated, “. . . the revised Girvan proposal does not sufficiently explain the
reason for the cost increase other than the activity has grown more rapidly than
anticipated.” The Deputy CFO also stated “. . . we strongly encourage you to perform a
detailed review of the Girvan business plan to insure [sic] its financial and strategic
feasibility before any action is taken on their revised proposal. . . .” Despite those
explicit concerns, the Ames Procurement Office awarded Supplement 1 to Girvan
without negotiating any reduction in funding or obtaining additional justification.
Further, Supplements 6 and 9 show no evidence of cost analyses to support the associated
funding increases to the Agreement. Documentation in the file merely directs the reader
to the cost analysis for the original Agreement as the basis of accepting the subsequent
funding increases.



4
Supplements 2-5, 7, and 8 made only administrative changes to the Agreement and did not change
NASA’s funding obligations under the Agreement.

                                                    5
Recommendations, Management’s Response and Evaluation of Management’s
Response.

   2. The Associate Administrator for Aeronautics should instruct the Director,
      Ames Research Center, to take action to ensure the proper financial
      oversight of the Agreement, provided the Agreement is not terminated.

Management’s Response. Pursuant to Recommendation 1, the Agency is taking action
to terminate the Agreement, rendering this recommendation moot.

Evaluation of Management’s Response. The recommendation is resolved and
dispositioned, and will be closed for reporting purposes.




                                        6
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Background, Scope, and Methodology

Appendix C – FAR Requirements for Unsolicited Proposals

Appendix D – Excerpts from the Professor’s Task Order and His
            Unsolicited Proposal

Appendix E – Management’s Response

Appendix F – Report Distribution




Acronyms Used in the Report

CFO         Chief Financial Officer
CTO         Commercial Technology Office
FAR         Federal Acquisition Regulation
NRP         NASA Research Park
OGC         Office of General Counsel




                                       7
               Appendix A. Status of Recommendations

Recommendation No.      Resolved    Unresolved   Open/ECD*   Closed
       1                   X                      02/29/04
       2                   X                                   X

 *ECD – Estimated Completion Date




                                      8
               Appendix B. Background, Scope, and Methodology

This review was a result of survey work conducted on the NASA Research Park (NRP) at
Ames Research Center (Ames). During our survey of the NRP, we reviewed the
cooperative agreement (Agreement) awarded to the Girvan Institute of Technology
(Girvan)5 because of potential duplication in the services for commercial technology
related to the development of the NPR.

Girvan’s task in the overall development of the NRP concept is to support the
management of Ames with an emphasis on management of commercial technology and
to function as an Entrepreneurial Center (EC) at Ames. Components of the EC included
operating elements; partnerships, both Center-wide and Principal Investigator specific
(Government-industry-university in various combinations); commercialization of
Government-developed technologies; outreach (conferences, workshops, and meetings);
developing tenant-partners in the NRP; and financing the activities of the EC, including
the establishment of the new companies to effect technology commercialization.

During our review of the Agreement, we conducted interviews with Ames management,
Girvan management, and Government, industry, and academic partners for the purpose of
better understanding Girvan’s overall role in the Ames NPR. We conducted fieldwork
between November 2002 and August 2003.

This review was conducted as a non-audit assignment in the new Office of Audits.
Although this review activity did not follow generally accepted government auditing
standards, appropriate inspection and evaluation quality standards and controls were
applied.




5
 A member of the Ames Commercial Technology Office, who was involved in the award of the
Agreement, told us that the institute was named “Girvan” because the Center Director at the time
(Harry McDonald) came from Girvan, Scotland.

                                                    9
         Appendix C. FAR Requirements for Unsolicited Proposals

The following Federal Acquisition Regulation (FAR) sections define an unsolicited
proposal and contain the requirements for acceptance and negotiation of an unsolicited
proposal on behalf of the Government.

FAR Subpart 15.603, “Unsolicited Proposals”

Part (a) defines an unsolicited proposal as follows:

        Unsolicited proposals allow unique and innovative ideas or approaches that have been
        developed outside the Government (emphasis added) to be made available to
        Government agencies for use in accomplishment of their missions. Unsolicited proposals
        are offered with the intent that the Government will enter into a contract [or other
        Agreement] with the offeror for research and development or other efforts supporting the
        Government mission, and often represent a substantial investment of time and effort by
        the offeror.

Part (c) expounds further on this definition,

A valid unsolicited proposal must—

        (1) Be innovative and unique;

        (2) Be independently originated and developed by the offeror (emphasis added);


        (3) Be prepared without Government supervision, endorsement, direction, or direct
            Government involvement (emphasis added);

        (4) Include sufficient detail to permit a determination that Government support could be
            worthwhile and the proposed work could benefit the agency’s research and
            development or other mission responsibilities; and

        (5) Not be an advance proposal for a known agency requirement that can be acquired
            by competitive methods (emphasis added).

FAR Subpart 15.607, “Criteria for acceptance and negotiation of an unsolicited
proposal”

(a) A favorable comprehensive evaluation of an unsolicited proposal does not, in itself, justify awarding a
contract without providing for full and open competition. The agency point of contact shall return an
unsolicited proposal to the offeror, citing reasons, when its substance:

        (1) Is available to the Government without restriction from another source;

        (2) Closely resembles a pending competitive acquisition requirement;

        (3) Does not relate to the activity's mission; or

        (4) Does not demonstrate an innovative and unique method, approach, or concept, or is otherwise
        not deemed a meritorious proposal.



                                                      10
(b) The contracting officer may commence negotiations on a sole source basis only when:

        (1) An unsolicited proposal has received a favorable comprehensive evaluation;

        (2) A justification and approval has been obtained (see 6.302-1(a)(2)(i) for research proposals or
        other appropriate provisions of Subpart 6.3, and 6.303-2(b));

        (3) The agency technical office sponsoring the contract furnishes the necessary funds; and

        (4) The contracting officer has complied with the synopsis requirements of Subpart 5.2.




                                                   11
Appendix D. Excerpts from the Professor’s Task Order and His
____________Unsolicited Proposal_____                     ___
Task Order. The task order required the professor to:

   •   Foster the participation of the several campuses of the University of California
       and other universities in the NASA Research Park (NRP).

   •   Support the development of activities in the NRP, for example, shared Research
       and Development; shared presentations of technological innovations; small-
       business incubation; and innovative activities of industrial and commercial
       organizations, both local and national, as well as government agencies at all
       levels.

   •   Recruit suitable tenants/partners for the NRP.

   •   Support the management of Ames in NRP-related activities.

   •   Support the management of NASA’s Ames Research Center, especially the
       management of the CTO of Ames.

   •   Support the development and implementation of the plan for the Entrepreneurial
       Center (the EC) of NASA Ames and the operating elements of the EC; the
       iterative analysis, refinements, and upgrades of these plans; the presentations of
       these plans to NASA management; and the analysis and reporting of the efficacy
       of the operations of the EC.

           o   Components of the EC plan will include, but will not be limited to: the
               organizational structure of the EC and its operating elements; partnerships, both
               center-wide and Principal Investigator-specific (government-industry-university
               in various combinations); commercialization of government-developed
               technologies, outreach (conferences, workshops, and meetings); developing
               tenant-partners in the NASA Research Park; and financing the activities of the
               EC, including the establishment of the new companies to effect technology
               commercialization.

Unsolicited Proposal. The unsolicited proposal submitted by the professor identified in
the Statement of Work that Girvan was established to:

   •   Foster, develop, support, and/or manage cooperative endeavors between the
       public, private, and/or academic sectors in support of research, technology
       development, and technology commercialization;

   •   Foster and support new companies or elements of existing companies devoted to
       the commercialization of technologies offered through the NRP; and
   •   Foster, develop, support, and/or manage projects, programs, and organizations for
       entrepreneurial education, education outreach, and workforce development.

                                              12
Appendix E. Management’s Response




               13
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
O/Assistant Administrator for Institutional and Corporate Management
R/Associate Administrator for Aeronautics

NASA Centers

ARC/D/Director, Ames Research Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Managing Director, Natural Resources and Environment, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology,
 and Space




                                         14
                                                                        Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

Joseph Kroener, Director, Procurement Audits

Lorne Dear, Associate Director, Procurement Audits

Joseph Fasula, Project Manager

Iris Purcarey, Program Assistant
